uo^rt^ Mppeai: i»-/oou

uou: -du

rneu: vuiv/li/lv^v

ry: i ui i

FILED: September 2, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7680
(3:19-cv-OO 150-HEH-RCY)

KENNETH H. NEWKIRK
Plaintiff - Appellant
v.
WARDEN KISER; LIEUTENANT LAMBERT; ASSISTANT WARDEN
ARTRIP; LIEUTENANT ADAMS; SERGEANT FLEMING; OFFICER
PERRIGAN; OFFICER RINES; COUNSELOR GIBSON; UNKNOWN, A
Captain; COUNSELOR MULLINS
Defendants - Appellees

ORDER
The court dismisses this proceeding for failure to prosecute pursuant to
Local Rule 45.
For the Court—By Direction
/s/ Patricia S. Connor, Clerk

Case 3:19-cv-00150-HEH-RCY Document 10 Filed 10/24/19 Page 1 of 1 PagelD# 20

E
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division

n l e
OCT 2 4 2019 t

CLERK, U.S. DISTRICT COURT
RICHMOND, VA______

KENNETH HOWARD NEWKIRK,
Plaintiff,
Civil Action No. 3:19CV150

v.

WARDEN KISER, et al.,
Defendants.
MEMORANDUM ORDER
(Denying Request for Bond)
By Memorandum Opinion and Order entered on March 30,2019, the Court dismissed this
action without prejudice. On April 8,2019, the Court received a “NOTICE OF APPEAL/BOND.”
(ECF No. 6.) The Court transmitted the Notice of Appeal to the United States Court of Appeals
for the Fourth Circuit and on June 6, 2019, the Fourth Circuit dismissed Plaintiffs appeal. (ECF
No. 8.)
In his request for bond, Plaintiff complains of various conditions of his confinement and
requests that the Court grant him bond. Plaintiff fails to identify a procedural vehicle that would
allow this Court to release Plaintiff on bond when he is in state custody. Accordingly, Plaintiff s
request for bond (ECF No. 6) is DENIED. No further action will be taken in this closed case.
The Clerk is DIRECTED to send a copy of this Memorandum Order to Plaintiff.
It is so ORDERED.
/s/

Date: October^, 2019
Richmond, Virginia

Roderick C. Young
/
United States Magistrate Judge

fypeMK & t)

n

